Nos. 20-512, 20-520

IN THE

epuprente Court of the 7frittiteb ikatess
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
AMERICAN ATHLETIC CONFERENCE, ET AL.,
Petitioners,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
On Writs of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
BRIEF OF AMERICAN COUNCIL ON EDUCATION
AND TEN OTHER HIGHER EDUCATION
ASSOCIATIONS AS AMICI CURIAE IN SUPPORT
OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,832 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 8, 2021.

/
Colin Casey Hog n
Wilson-Epes Printing Co., Inc.

